                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: A03070042                                                                     Page 1 of 1



    After emailing complainant1to arrange a time to speak by phone, complainant replied by email
    that she would like to withdraw the allegation that the NSF awardee did not follow its criteria in
    selecting students to participate in the summer           Complainant alleged that the subject3
    had admitted verbally to her that a mistake was made in denying her admission to the program.
    Complainant was admitted to the program two days before it started and does not feel it
    necessary to follow through with the complaint.

    The summer program chose its participants:

            based on both a student's academic record and particular circumstances relating to time in
            a graduate program. Priority was given to those applicants who could benefit most from
            the subject matter to be offered (e.g., students who are ready to submit proposals Fall of
            2003)."

    Although the selection criteria are vague, there are no other indications that the initial denial of
    admission was anything more than a mistake that the subject has now rectified. There is
    insufficient substance to warrant inquiry.

    Accordingly, this file is closed.




     Taken from subject's email to complainant.
